U.S. Department of the Interior
Office of Inspector General




         SURVEY REPORT


  BACKGROUND INVESTIGATIONS FOR
PHOENIX AREA EDUCATION EMPLOYEES,
     BUREAU OF INDIAN AFFAIRS

             REPORT NO. 99-I-l 45
              DECEMBER 1998
                                                                              C-IN-BIA-002-98(A)-R


                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                          Washington, D.C. 20240

                                                                         DEC 2 3 @6


                                     SURVEY REPORT
Memorandum

To:        Assistant Secretary for Indian mairs

From:      Robert J. Williams
           Assistant Inspector

Subject: Survey Report on Background Investigations for Phoenix Area Education
         Employees, Bureau of Indian mairs (No. 99-I-145)

                                     INTRODLJCTION
This report presents the results of our surcey of background investigations for Phoenix Area
education employees performed by the Bureau of Indian Affairs. The objective ofthe survey
was to determine whether the Bureau performed, in accordance with applicable laws,
regulations, and policies, background investigations and suitability determinations’ for
education employees who work in Bureau-operated schools. The audit was conducted in
response to a request from you, as the Assistant Secretary for Indian Affairs.

BACKGROUIVD

The legislative requirements for background investigations for education employees are
contained in the Indian Child Protection and Family Violence Prevention Act (Public
Law 101-630, dated November 28, 1990) and the Crime Control Act of 1990 (Public
Law 101-647, dated November 29, 1990). In general, the Acts require that all employees
who have regular contact with children receive background investigations. The Code of
Federal Regulations (25 CFR 63) establishes minimum standards of character “to ensure that
individuals having regular contact with or control over Indian children have not been
convicted of certain types of crimes or acted in a manner that placed others at risk or raised
questions about their trustworthiness.” In addition, the Code of Federal Regulations
(5 CFR736)requires that personnel background investigations be initiated within 14 days of




’ An employee suitability determination (adjudication) consists of determining whether an employee has met
the required background investigation standards.
placement (hire date) for all noncritical sensitive positions.’ In that regard, the Bureau has
designated as noncritical sensitive positions all education employee positions within the Office
of Indian Education Programs. Further, administrative instructions for personnel officers to
keep security officers informed of all relevant personnel actions are contained in the
Department of the Interior Manual (44 1 DM 3.3C), and instructions for employee selecting
officials to conduct and document reference checks and obtain information on any previous
background investigations are contained in the Bureau of Indian ARairs Manual (62 BIAM
1 I), dated April 6, 1990, and updated on November 7, 1996.

The Bureau’s background investigation process begins after an applicant is conditionally
selected for employment. First, the employing school or related agency office provides the
applicants with the background investigation forms3 and instructs the applicants to return the
completed forms on or prior to the date ofhire. Prior to April 28, 1998, the school or agency
sent the forms to the Area Security Officer for the Officer’s determination that the forms were
complete. The Security Officer reviewed and updated incomplete forms by contacting the
appropriate employing school and sent the forms to the Office of Personnel Management. On
April 28, 1998, the Bureau changed its process and made the agency or school responsible
for submitting the forms to the O&e of Personnel Management, which conducts the
background investigations and sends the results to the Area Security Officer.

To comply with the background investigation requirements for Bureau employees, the Bureau
has five Security Officers (one Central Ofice Security Officer in Washington, D.C., and an
tiea Security Officer in Albuquerque, New hlexico; .-\berdeen, South Dakota; Billings,
Montana; and Phoenix, Arizona). The four Area Security Officers report to the Central
Office Security OfIicer. For positions requiring investigations, the Area Security Officers are
responsible for initiating education employee background investigations and adjudicating the
investigation results received from the Office of Personnel Management.

During 1997. the Of&e of Indian Education Programs employed approximately 5,165
employees in 8 2 Bureau-operated elementary and secondary schools and 5 peripheral
dormitories for students who attend public schools. The Phoenix Area Security Office, xvhich
is also responsible for background investigations within the Sacramento Area, is responsible
for the oversight and coordination of background investigations related to 436 education
employees at four agency offices and nine Bureau-operated elementary and secondary schools
with a total student enrollment of 2.127.



‘The Federal Personnel Manual. Subchapter 2. identifies four sensitivity levels for designating positions for
security-related positions: nonsensitive, noncritical-sensitive. critical-sensitive, and special-sensitive. The
subchuptcr states that noncntlcal-sensitive includes posltions that involve one of the following: “access to
Secrer or C’mj7dentiaf national security materials, information. etc.: - Duties that may directly or indirectly
adversely affect the overall operations of the agency: - Duties that demand a high degree of confidence and
trust.”

‘All education employees are required by the Office of Personnel Management to complete a “Questionnaire
for Public Trust Position” (SF-85P), a “Supplemental Questionnaire for Selected Positions” (SF-85P-S), and
a “Fingerprint Chart” (SF-87).

                                                      2
SCOPE OF SURVE’L

Our survey was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. To accomplish our objective, we (1) obtained and reviewed applicable criteria
related to initiating, processing, and adjudicating background investigations; (2) reviewed and
discussed Area Security O&e background investigation operating procedures with Bureau
officials; and (3) selected and reviewed a judgmental sample of education employees’ security
and personnel files.

We selected our sample from the 436 education employees covered by the Phoenix Area
Security Offtce shown in the Bureau’s payroll system at March 16, 1998. The payroll system
indicated that for the 436 education employees, investigations had been completed for 206
employees and had not been completed for 230 employees. We judgmentally selected 85
employees (20 percent), of which 36 employees were recorded as having completed
investigations and 49 employees were recorded as not having completed investigations. The
scope of our review did not include the procedures used by the Office of Personnel
Management to perform background investigations.

As part of our survey, we reviewed the Departmental Report on Accountability for fiscal year
 1996 and the Bureau’s annual assurance statement on management controls for fiscal year
1997, both ofwhich contain information required by the Federal Managers’ Financial Integrity
Act. We determined that neither report disclosed any internal control weaknesses related to
the objective of this survey. We also evaluated the Phoenix Area’s system of internal controls
related to the education employee background investigation process to the extent we
considered necessary to accomplish the objective. The internal control weaknesses identified
are discussed in the Results of Survey section of this report. Our recommendations, if
implemented, should improve the internal controls in the areas identified.

Our survey was performed from April 27 to May 20, 1998, and included visits to the
Bureau’s Phoenix Area Security Office in Phoenix and the Offrice of Indian Education
Programs Personnel Office in Albuquerque.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has performed any audits that addressed Bureau of Indian AtTairs education employees’
background investigations and suitability determinations. However, on June 27, 1997, the
Office of Personnel Management issued the report “Appraisal of the Personnel
Security/Suitability Programs ofthe Bureau ofIndian Affairs Central Oflice East/West.” The
report stated that personnel security and suitability programs in the Bureau’s Central Office
needed to be improved. Specifically, the report stated that 19 (22 percent) of 87 personnel
tiles reviewed had no indication that a background investigation had been performed. The
report made recommendations to improve procedures for ensuring that background
investigations are initiated timely on all employees. In its October 23, 1997, response to the

                                              3
report, the Bureau stated that (1) the individuals identified as not having had a background
investigation had been provided the necessary forms and that background investigations were
being scheduled with the Office of Personnel Management and (2) the Bureau had initiated
“a 100 percent review” of the official personnel tiles for the Central Office East/West to
determine whether additional corrective actions were warranted. In its October 27, 1998,
response (Appendix 1) to the draf? of this report, the Bureau stated that all 19 of the
individuals identified as not having had a background investigation were Bureau employees
but did not work for the Office of Indian Education Programs. The Bureau further stated that
as of October 15, 1998, the status of the background investigations for the 19 employees was
as follows: nine employee investigations had been completed, nine employee investigations
were ongoing pending correction of security forms, and one investigation was no longer
necessary because the employee no longer worked for the Bureau,

In addition, on October 24, 1997, the Acting Personnel Officer, Office of Indian Education
Programs, provided the Director with a report on the status of education employees’
background investigations as listed in the payroll system. The report disclosed that
background investigations had not been completed for 1,495 (29 percent) of the Bureau’s
5,165 school employees. The Acting Personnel Officer recommended that background
investigation forms be included with the appointment documents sent to the Office of Indian
Education Programs Personnel Office to ensure that the forms are completed by the employee
when the employee is hired. The report did not require a response, and at the time of our
review, the Acting Personnel Officer said that no action had been taken on the report’s
recommendation.

In its response to the draft of this report, the Bureau stated:

        More than half of the 1,495 employees, however, had been investigated and
        determined suitable under E.O. [Executive Order] 10450 standards which are
        the same standards as in Pub. L. [Public Law]lOl-630. Most of these
        background investigations were conducted in the late 1970’s or early 1980’s.
        The OPM’s [Office of Personnel Management] SII [Security Investigative
        Index] data base only maintains information on investigations conducted
        within the past 15 years. Therefore, an SII check of the OPM files will denote
        a “No Record” for investigations completed prior to 1983.

The Bureau further stated:

        To determine an accurate universe, the Bureau security specialists conducted
        a thorough review of all OIEP [Ofice of Indian Education Programs]
        employees using a July 20, 1998, payroll listing, the employees’ OfYicial
        Personnel Folders, and OPM’s SII data base. Based on this review the
        Bureau determined that 836 current OIEP employees required investigations.
        Of that number, 101 were employed at the Phoenix Area.
                                 RESULTS OF SURVEY
The Phoenix Area Security Office did not timely initiate and properly complete all background
investigations for new and existing education employees. Specifically, we found that the Area
Security Ofice had not initiated background investigations for 38 (45 percent) of the 85
employees in our sample and had not submitted to the Office of Personnel Management
background investigation forms in a timely manner for 16 (34 percent) of the 47 remaining
employees. However, the completed background investigations received from the Office of
Personnel Management generally were reviewed and adjudicated in a timely manner by the
Area Security Officer. The Indian Child Protection and Family Violence Prevention Act, the
Crime Control Act, and the Code of Federal Regulations contain the requirements for
performing and completing background investigations. However, the Bureau did not have
effective processes, including written procedures, to identify all employees needing
background investigations and to the obtain the information necessary for the proper and
timely completion of background investigations and security clearances. As a result, the
Bureau could not be assured that the 38 individuals who were employed without the requisite
background investigations at one agency ofice and seven Bureau-operated schools that had
a total student enrollment of 1,807 were suitable for employment* at these facilities, In
related matters. we found that while the required fingerprint verifications to identify
individuals with unsuitable backgrounds were generally completed, background investigations
and security clearances were not always documented in the personnel files as having been
completed, and approved and required preemployment reference checks were not always
documented in the personnel files as having been performed.

Initiating Background Investigations

Section 408 of the Indian Child Protection and Family Violence Prevention Act, dated
November 28, 1990, requires that background investigations be performed for employees
who have regular contact with or control over Indian children. In addition, Section 23 1 of
the Crime Control Act of 1990, dated November 29, 1990, requires that all existing
employees involved in child care services, including education employees, receive background
investigations no later than May 29, 199 1. Also, the Departmental Manual (441 DM 3.3C)
states that personnel officers are responsible for ensuring that security officers are
immediately notified of all relevant personnel actions, including (1) changes in program or
position placement (sensitivity levels) which require additional investigation and (2)
reassignments, details, transfers, or terminations for all sensitive positions and for positions
such as education employee positions which require security clearances. However, we found
that the Bureau did not have written procedures for transmitting the necessary information,
including relevant personnel actions, to the Area Security Oficer. Instead, the Bureau relied
on the employing school or agency to inform the Security Oficer of employees needing
background investigations. However, the schools and agencies did not always identify
employees who did not have completed background investigations, obtain the required


4The Personnel Office for the Office of Indian Education Programs indicated, on May 7, 1998, that for these
38 individuals. there were no reported incidents of child abuse or molestation.

                                                     5
background investigation forms from the employees, or submit the background investigation
forms to the Area Security Office

Based on our review of the security and personnel files for the 85 employees, we found that
background investigations had not been initiated for 10 (48 percent) of 21 employees hired
before the Crime Control Act was enacted on November 29, 1990, and for 28 (44 percent)
of 64 employees who were hired on or after that date. Examples of the absence of initiation
of background investigations are as follows:

        - On June 6, 1994, the Bureau hired a special education teacher. However, as of
April 27, 1998, approximately 4 years after the teacher was hired, the employee had not
received a completed background investigation. In addition, the Area Security Office had no
record of whether the required background investigation forms had been submitted by the
employee.

        - On February 3, 1998, the Bureau hired a dormitory assistant. However, as of
April 27, 1998, nearly 3 months after the assistant was hired, the employee had not received
a completed background investigation. In addition, the Area Security Office had no record
of whether the required background investigation forms had been submitted by the employee.

        - On April 16, 1984, the Bureau hired a dormitory manager for a boarding school.
However, as of April 27, 1998, approximately 7 l/2 years after enactment of the Crime
Control Act, the employee had not received a completed background investigation In
addition, the Area Security Office had no record of whether the required background
investigation forms had been submitted by the employee.

        - On August 18, 1985, the Bureau hired an education aide. However, as of April 27,
1998, approximately 7 l/2 years after enactment ofthe Crime Control Act, the employee had
not received a completed background investigation. In addition, the .tiea Security Offtce had
no record of whether the required background investigation forms had been submitted by the
employee.

Based on these examples, we believe that the Bureau should improve controls over the
initiation of background investigations to ensure that all employees who have regular contact
with children receive background investigations.

Submitting Background Investigation Forms

The Crime Control Act, Section 23 1. requires that all existing and newly hired employees
involved in child care services, including education employees, receive a background
investigation, with all existing employees receiving background investigations no later than
May 29, 199 1. In addition, the Code of Federal Regulations (5 CFR 736) requires personnel
background investigations to be initiated within 14 days of placement (hire date) for all
noncritical sensitive positions. Further, the Phoenix Area Security Officer position description
includes a requirement that procedures should be developed, in cooperation with the Office
of Indian Education Programs Personnel Officer, for the administration of the Security

                                               6
Program covering education employees throughout the Phoenix Area. However, we found
a lack of coordination between the Area Security Offtce and the Personnel Office in the
development and implementation of the Security Program’s operating procedures. For
example, schools and agencies did not always require employees to submit background
investigation forms in a timely manner, and the Area Security Office did not always monitor
and follow up on background investigation forms that were returned to employees for
completion.

Based on our review of security and personnel tiles for 47 employees whose background
investigations had been completed or initiated, we found that the required background
investigation forms for 16 (34 percent) of the 47 employees had not been timely submitted
by the Area Security Office to the Office ofPersonnel Management. Specifically, background
investigation forms for 13 employees hired after the November 29, 1990, enactment date of
the Crime Control Act were submitted an average of 185 days after the date of hire rather
than within the 14 days required by the Code of Federal Regulations (5 CFR 736) and that
background investigation forms for 3 employees hired before November 29, 1990, were not
submitted in accordance with the Act’s due date for submission of May 29, 199 1. For
example:

        - On February 6, 1995, the Bureau hired a school principal but did not renew the
principal’s contract after it expired on July 20, 1996. However, on February 10, 1997, the
individual was hired as a school counselor. The Area Security Offtce did not submit this
individual‘s background investigation forms to the Offtce of Personnel Management until
September 18, 1997, approximately 2 l/2 years after the initial hire date of February 6, 1995

        - On August 8, 1995, the Bureau hired a school janitor. However, the background
investigation forms were not submitted by the Area Security Office to the Office of Personnel
Management until June 17, 1997, approximately 2 years after the employee was hired.

        - On December 4. 1988, the Bureau hired an education program administrator.
However, the employee did not receive a background investigation in accordance with the
Act’s May 29, 199 1, deadline for submission. A completed background investigation was not
obtained from the Office of Personnel Management until December 17, 1997, approximately
6 l/2 years after the Act’s deadline for submission.

On April 28, 1998, the Bureau took action to improve its controls over the security program
by issuing new operating procedures that primarily addressed employee position sensitivity
designations and the appointment of employees to positions requiring background
investigations, If implemented, these procedures should improve the designation ofposition
sensitivity levels. The procedures also made the employing agency or school rather than the
.\rea Security Offtcer responsible for submitting background investigation forms to the Offtce
of Personnel Management. While this change should improve the timeliness of the
submissions, the procedures do not provide assurance that all forms will be obtained and
independently verified before they are submitted to the Ofice of Personnel Management.
Area Security Officers were previously responsible for these duties. In addition, the



                                              7
procedures do not address the completion of background investigations for individuals who
are employed.

Documenting Security Clearances

The Certification of Investigation’ requires that a certification be permanently maintained in
the employee’s official personnel file after the Area Security Officer has made a final
employee suitability determination. The certification evidences that an employee received a
background investigation and was determined to be suitable for employment by an Area
Security Officer. However, we found that the certifications were not always (1) timely
forwarded by the Area Security Office to the Oflice of Indian Education Programs Personnel
Office and/or (2) included in the education employees’ official personnel files by the Of&e
of Indian Education Programs Personnel Office. Specifically, we found that the official
personnel files for 16 (35 percent) of 46 employees reviewed who had approved security
clearances did not contain the required certification. For example:

        - On November 9, 1997, the Office of Personnel Management completed a
background investigation for a special education teacher. On November 25, 1997, the Area
Security Officer reviewed the completed background investigation and determined that the
individual was suitable for employment. However, as of .4pril27, 1998, the certification had
not been included in the employee’s official personnel file.

         - On December 6, 199 1, the OffIce of Personnel Management completed a
background investigation for a dormitory assistant. However, as of April 27, 1998, the
certification had not been included in the employee’s official personnel file. In addition, the
Area Security Oficer could not support that the completed background investigation had
been reviewed or that the security clearance had been approved.

Without the certifications. the Bureau has no documentation in the official personnel files that
employees are suitable for employment.

Checking Preemployment References

The Bureau of Indian ARairs Manual (62 BIAM 11) requires (1) employee selecting officials
to conduct telephone reference checks with at least three prior employers and three personal
references before making a selection, (2) the Ofice of Indian Education Programs Personnel
OffIce to ensure that the selecting official has made and documented the necessary
preemployment reference checks and contacted the Office of Personnel Management to
determine whether any previous background investigations have been performed, and (3)
applications without proper documentation to be returned to the selecting official with no
action taken. However, we found that the Personnel Offlice, Office of Indian Education
Programs, did not always ensure that preemployment references, including prior employers



‘The Certification of Investigation is prepared by the Office of Personnel Management for all completed
background investigations and is forwarded to the Area Security Office.

                                                   8
and personal references, were checked and documented by the selecting officials before
selected applicants were hired.

Our review of employee personnel files for 67 education employees hired after April 6, 1990,
disclosed that 45 files (67 percent) did not have documentation of completed preemployment
reference checks. For example:

        - The personnel file for a school teacher hired on March 3, 1997, contained no
evidence that any preemployment reference checks had been performed. We also determined
that the employee had not received a completed background investigation as of April 27,
1998

       - The personnel file for a school bus driver hired on February 16,1995, contained no
evidence that a preemployment check of personal references had been performed. We also
determined that the employee had not received a completed background investigation as of
April 27, 1998.

The Bureau needs to use all the measures available, including preemployment reference
checks, to help ensure that employees who have regular contact with children are suitable for
employment.

Recommendations

We recommend that the Assistant Secretary for Indian .UYairs:

        1. Direct the Central Office Security OffLzer to establish policies and procedures to
ensure that education employees who have not received completed background investigations
are identified and that all background investigation forms are obtained, properly completed,
and submitted to the Office of Personnel Management.

       3. Direct the Central Office Security Officer to establish policies and procedures to
ensure that the Phoenix Area Security Office is notified by the Office of Indian Education
Programs Personnel Office of all relevant personnel actions.

        3. Direct the Personnel OfTicer, OffIce of Indian Education Programs, to ensure that
preemployment reference checks are completed timely and documented appropriately in
accordance with the Bureau Manual and that Certification of Investigation documents
received from the Area Security OffIce are timely included in the official personnel file.

Assistant Secretary for Indian Affairs Response and Office of Inspector
General Reply

In the October 27, 1998, response (Appendix 1) to the draft report, the Assistant Secretary
for Indian Affairs concurred with Recommendations 1, 2, and 3. Based on the response, we
consider Recommendations 1 and 3 resolved but not implemented and Recommendation 2
resolved and implemented. Accordingly, the unimplemented recommendations will be
referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation (see Appendix 2).

Additional Comments on Audit Report

In its response, the Bureau provided additional information on the Prior Audit Coverage
section of the draft report regarding the June 27, 1997, Office of Personnel Management
report “Appraisal of the Personnel Security/Suitability Programs of the Bureau of Indian
AtTairs Central Office East/West” and the October 24, 1997, report from the Office of Indian
Education Programs’ Acting Personnel Officer to the Director pertaining to the status of
education employees’ background investigations as listed in the payroll system. Accordingly,
we have revised the Prior Audit Coverage section of this report to incorporate the Bureau’s
comments as appropriate.

The legislation, as amended, creating the Office of Inspector requires semiannual reporting
to the Congress on all audit reports issued, the monetary impact of audit findings, actions
taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

Since the report’s recommendations are considered resolved, no further response to the Office
of Inspector General is required (see Appendix 2).

We appreciate the assistance of Bureau personnel in the conduct of our survey.




                                             10
                                                                                    APPENDIX 1
                                                                                     Page I of 4

                 United States Department of the Interior
                                   OFFICE OF THE SECRETARY
                                        Washington, D.C. 20240




Memorandum

To:       Assistant Inspector General for Audits                          I

From:     Assistant Secretary - Indian Affairs

Subject: Draft Survey Report on Background Investigation!?for Phoenix Area Education
         Employees, Bureau of Indian AtTails (C-IN-BIA-002-98(A)-R)

Shortly afler my appointment as Assistant Secretary, concerns were raised about the adequacy of the
Bureau of Indian Affairs compliance with the requirements to conduct background investigations of
employees occupying sensitive positions, particularly for those employees of the OfIice of Indian
Education Programs (OIEP) who work with children. To determine the scope of the problem, I
requested the Office of the Inspector General to conduct a review and appreciate your timely
response to this request. While the review was underway, the Bureau initiated a number of actions
to improve the operation of the background investigations program which are discussed below,

Background

Since 1992, Bureau security specialists have adjudicated 6,000 background investigations for7,200
employees occupying sensitive and public trust positions in education and non-education programs.
The 7,200 employees include 5,100 teachers, administrators, and support staff employed by the
OIEP, all ofwhich require background investigations as mandated by Pub. L. 101-630, Indian Child
Protection and Family Violence Prevention Act, and Pub. L. 101-647, Crime Control Act. Further,
OIEP experiences an annual employee turnover of approximately 1,000 employees, which increases
the background investigations workload.

Seven Bureau security specialists are responsible for the review and adjudication of all sensitive and
public trust background investigations for all Bureau employees, as mandated by Executive
Order 10450, Security Requirements for Government Employees, and Executive Order 12968,
Access to Classified Information. Bureau personnel officers are responsible for the review and
adjudication of non-sensitive positions, e.g., clerk typists, engineers, foresters. Because Pub. L.lOI-
630 requires the Bureau to investigate the character of all employees whose duties and responsibilities
involve regular contact with or control over Indian children, all 5,100 positions within OIEP are
designated as sensitive and public trust.




                                                  11
                                                                                   APPENDIX 1
                                                                                    Page 2 of 4


Prior Audit Coverage

The draft audit report provided information regarding the results of the June 1997 Office of Personnel
Management (OPM) report entitled “Appraisal of the Personnel Security/Suitability Programs of the
Bureau of Indian Atrairs Central Oflice East/West.” The OPM report addressed both sensitive and
non-sensitive positions in the Bureau’s non-education programs. The report stated that 22 percent
or 19 of the personnel files reviewed had no indication that a background investigation had been
performed. None of the 19 employees identified in the OPM report were OIEP employees. All 19
occupied non-sensitive positions for which Bureau personnel officers are responsible. As of
October 15, 1998, one of the 19 employees has separated; investigations have been completed for
nine; and closure for the remaining nine employees is pending corrections of the security forms.

The drawl audit report also indicated that background investigations had not been completed for 1,495
(29 percent) of the OIEP’s employees. This list was based on the status of the education employees
background investigations as noted in the payroll system which was cross-referenced with the OPM’s
Semity Investigative Index (SII) to determine whether a background investigation was completed
for the employee. More than half of the 1,495 employees, however, had been investigated and
determined suitable under E.O. 10450 standards which are the same standards as in Pub. L. 101-630.
Most of these background investigations were conducted in the late 1970’s or early 1980’s. The
OPM’s SII data base only maintains information on investigations conducted within the past IS years.
Therefore, an SII check of the OPM files will denote a “No Record” for investigations completed
prior to 1983.

To determine an accurate universe, the Bureau security specialists conducted a thorough review of
all OIEF employees using a July 20, 1998, payroll listing, the employees’ Official Personnel Folders,
and OPM’s SII data base. Based on this review the Bureau determined that 836 current OIEP
employees required investigations. Of that number, 101 were employed at the Phoenix Area. All of
these employees have subsequently submitted an SF 85P, Questionnaire for Public Trust Positions,
an SF 85PS, Supplemental Questions, an SF 87, Fingerprint Card, OF 612, Application for
Employment or a resume, and OF 306, Declaration for Federal Employment. The completed security
packages have been submitted to OPM for investigation.


Recommendations

The draft audit report recommended that the Assistant Secretary - Indian mairs:

Recommendation l_ Direct the Central Oflice Security Oficer to establish policies and procedures
to ensure that education employees who have not received completed background investigations are
identified, that employee suitability determinations are completed for all completed background
investigations, and that all background investigation forms are obtained, properly completed, and
submitted to the Ofice of Personnel Management.



                                                 2

                                                  12
                                                                                      APPENDIX 1
                                                                                       Page 3 of 4


Bureau Response The Bureau concurs. The Deputy Commissioner of Indian Affairs centralized the
background investigations finction under the Director, Office of Tribal Services, on February 15,
1998. On April 28, 1998, Standard Operating Procedures were issued by the Deputy Commissioner
and Director, OIEP, that established standard operating procedures for placement in sensitive and
public trust positions. As indicated above, completed packages for all OIEP employees in the
Phoenix Area that required a background investigation have been submitted to OPM.

To ensure that all forms receive an independent verification of completion prior to submission to
OPM, the Bureau will revise its Standard Operating Procedures to make the security specialists
responsible for submitting the security package to OPM. The Standard Operating Procedures will
be revised by December 15, 1998. In addition, a Handbook with detailed information and procedures
is being developed and will be completed by April 30, 1999. The responsible official for
implementation of the recommendation is the Director, Office of Tribal Services.

Pecommenm Direct the Central Ofice Security Officer to establish policies and procedures
to ensure that the Phoenix Area Security Oflice is notified by the Area Personnel Office of all relevant
personnel actions.

J3urau Response, The Bureau concurs. The Bureau security specialists have been given nationwide
access to the Pay/Pers System. Access enables all security specialists to track new hires,
reassignments, transfers, and separations. In addition, Area security specialists have begun encoding
investigation data into the Pay/Pers System. The Standard Operating Procedures already require
Area and OIEP personnel officers to notify the appropriate security specialist/officer of all actions.
Access to the PayiPers System will permit verification by the security specialist.

We consider this recommendation resolved and implemented_

Recomm&ion 3, Direct the Personnel Oficer, OffIce of Indian Education Programs, to ensure
that preemployment reference checks are completed timely and documented appropriately in
accordance with the Bureau Manual and that Certification of Investigation documents received from
the area Security Ofice are timely included in the official personnel file.

Bureau Response. The Bureau concurs. The action to revise the Standard Operating Procedures to
make the security specialist responsible for submitting the security package to OPM will provide
verification of completion of not only the security package, but also the preemployment reference
check. Quarterly, each security specialist will randomly select pre-employment screening forms
completed by the appointing officials and recontact the named references to confirm each was
interviewed by a Bureau representative.

Included in the revision to the Standard Operating Procedures and the Handbook will be forms to
document favorable as well as unfavorable determinations in the personnel file. Responsibilities of




                                                  3

                                                   13
I1                                                                                  APPENDIX 1
                                                                                     Page 4 of 4


     the various Bureau employees will be clarified. The Standard Operating Procedures will be amended
     by December 15, 1998. In addition a Handbook with detailed information and procedures is being
     developed and will be completed by April 30, 1999. The responsible official for implementation of
     the recommendation is the Director, Office of Tribal Services.




                                                   4

                                                       14
                                                                  APPENDIX 2




      STATUS OF SURVEY REPORT RECOMMENDATIONS


    Finding/
Recommendation
   Reference            Status                  Action Required

    1 and 3      Resolved; not   No f&her response to the Office of Inspector
                 implemented.    General is required. The recommendations
                                 will be referred to the Assistant Secretary for
                                 Policy, Management and Budget for tracking
                                 of implementation.

                 Implemented.    No further action is required.




                                 15
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov


                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D. C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-508 1
 TDD l-800-354-0996

FT’SKommerciai Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail Stop 5341
Washington, DC. 20240
